                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: A08050029
                                                                                    11          Page 1 of 1



                  We identified two images in an NSF proposal1 which a PI^ had previously published3 with
          significantly different experimental conditions. We referred an investigation for alleged data
          fabrication or falsification to the PI'S in~titution.~
                                                               The institution secured evidence and examined
          data from the PI'S lab. The institution determined that the PI'S graduate student5 had collected
          images consistent with the experimental conditions reported in the proposal at least one year prior to
          proposal submission. From these images, the institution concluded that there would have been no
          motive for the PI to use the images from the publication. The institution concluded that this was a
          case of honest error or mistake. We concur with the institution that there is insufficient evidence to
          support an allegation of data fabrication or falsification against the PI.

                    Accordingly, this case is closed.




           1
           2
           3
           4
           5




 NSF OIG Form 2 (1 1/02)
